               Department of Veterans Affairs
               Office of Inspector General


                 Office of Healthcare Inspections

Report No. 14-00927-293


 Community Based Outpatient Clinic 

  and Primary Care Clinic Reviews 

                at 

 VA Long Beach Healthcare System 

      Long Beach, California 





September 30, 2014

                      Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations
                    Telephone: 1-800-488-8244
                   E-Mail: vaoighotline@va.gov
         (Hotline Information: www.va.gov/oig/hotline)
                       CBOC and PCC Reviews at VA Long Beach Healthcare System, Long Beach, CA



                                            Glossary
                       AUD        alcohol use disorder
                       CBOC       community based outpatient clinic
                       DWHP       designated women’s health provider
                       EHR        electronic health record
                       EOC        environment of care
                       MM         medication management
                       NM         not met
                       OIG        Office of Inspector General
                       PACT       Patient Aligned Care Teams
                       PCC        primary care clinic
                       RN         registered nurse
                       VHA        Veterans Health Administration
                       VISN       Veterans Integrated Service Network
                       WH         women’s health




VA OIG Office of Healthcare Inspections
                              CBOC and PCC Reviews at VA Long Beach Healthcare System, Long Beach, CA



                                            Table of Contents 

                                                                                                                             Page 

Executive Summary ...................................................................................................              i


Objectives, Scope, and Methodology.......................................................................                          1

  Objectives ...............................................................................................................       1

  Scope......................................................................................................................      1

  Methodology ...........................................................................................................          1


Results and Recommendations ................................................................................                       3

  EOC ........................................................................................................................     3

  AUD ........................................................................................................................     6

  MM ..........................................................................................................................    8

  DWHP Proficiency ..................................................................................................              9


Appendixes
  A. CBOC Profiles and Services Provided ..............................................................                           10

  B. PACT Compass Metrics ....................................................................................                    12

  C. VISN Director Comments ..................................................................................                    16

  D. Facility Director Comments ...............................................................................                   17

  E. OIG Contact and Staff Acknowledgments .........................................................                              21

  F. Report Distribution .............................................................................................            22

  G. Endnotes ...........................................................................................................         23





VA OIG Office of Healthcare Inspections
                       CBOC and PCC Reviews at VA Long Beach Healthcare System, Long Beach, CA



                                Executive Summary 

Review Purpose: The purpose of the review was to evaluate selected patient care
activities to determine whether the community based outpatient clinics (CBOCs) and
primary care clinics (PCCs) provide safe, consistent, and high-quality health care for our
veterans. We conducted a site visit during the week of July 21, 2014, at the Santa Ana
CBOC, Santa Ana, CA, which is under the oversight of the VA Long Beach Healthcare
System and Veterans Integrated Service Network 22.

Review Results: We conducted four focused reviews and had no findings for the
Designated Women’s Health Provider Proficiency review. However, we made
recommendations in the following three review areas:

Environment of Care. Ensure that:

	   Panic alarms are tested, and testing is documented at the Santa Ana CBOC.

	   The parent facility’s Emergency Management Committee evaluate the emergency
     preparedness activities, participation in annual disaster exercise, and staff
     training/education related to emergency preparedness requirements at the Santa
     Ana CBOC.

Alcohol Use Disorder. Ensure that CBOC/PCC:

	   Staff consistently document the offer of further treatment to patients diagnosed with
     alcohol dependence.

	   Registered Nurse Care Managers receive motivational interviewing and health
     coaching training within 12 months of appointment to Patient Aligned Care Teams.

Medication Management. Ensure that CBOC/PCC staff:

	   Document that medication reconciliation is completed at each episode of care where
     the newly prescribed fluoroquinolone was administered, prescribed, or modified.

	   Provide medication counseling/education as required.




VA OIG Office of Healthcare Inspections                                                     i
                       CBOC and PCC Reviews at VA Long Beach Healthcare System, Long Beach, CA


Comments
The VISN and Facility Directors agreed with the CBOC and PCC review findings and
recommendations and provided acceptable improvement plans. (See Appendixes C
and D, pages 16–20, for the full text of the Directors’ comments.) We will follow up on
the planned actions for the open recommendations until they are completed.




                                                        JOHN D. DAIGH, JR., M.D. 

                                                       Assistant Inspector General for 

                                                          Healthcare Inspections





VA OIG Office of Healthcare Inspections                                                     ii
                           CBOC and PCC Reviews at VA Long Beach Healthcare System, Long Beach, CA



                    Objectives, Scope, and Methodology 

Objectives
The CBOC and PCC reviews are an element of the OIG’s efforts to ensure that our
Nation’s veterans receive high-quality VA health care services. As such, the CBOC and
PCC reviews are recurring evaluations of selected primary care operations that focus on
patient care quality and the EOC. In general, our objectives are to:

      	   Determine whether the CBOCs are compliant with EOC requirements.

      	   Determine whether CBOCs/PCCs are compliant with VHA requirements in the
           care of patients with AUD.

      	   Determine compliance with requirements for the clinical oversight and patient
           education of fluoroquinolones for outpatients.

      	   Evaluate if processes are in place for DWHPs to maintain proficiency in WH.

Scope
To evaluate for compliance with requirements related to patient care quality and the
EOC, we conducted an onsite inspection, reviewed clinical and administrative records,
and discussed processes and validated findings with managers and employees. The
review covered the following four activities:

      	   EOC

      	   AUD

      	   MM

      	   DWHP Proficiency

The scope of this review is limited to the established objectives. Issues and concerns
that come to our attention that are outside the scope of this standardized inspection will
be reviewed and referred accordingly.

Methodology
The onsite EOC inspection was only conducted at a randomly selected CBOC that had
not been previously inspected.1 Details of the targeted study populations for the AUD,
MM, and DWHP Proficiency focused reviews are noted in Table 1.




1
    Includes 93 CBOCs in operation before March 31, 2013.


VA OIG Office of Healthcare Inspections                                                         1
                          CBOC and PCC Reviews at VA Long Beach Healthcare System, Long Beach, CA


Table 1. CBOC/PCC Focused Reviews and Study Populations

      Review Topic                                    Study Population
          AUD                  All CBOC and PCC patients screened within the study period
                               of July 1, 2012, through June 30, 2013, and who had a positive
                               AUDIT-C score2 and all providers and RN Care Managers
                               assigned to PACT prior to October 1, 2012.
            MM                 All outpatients with an original prescription ordered for one of
                               the three selected fluoroquinolones from July 1, 2012, through
                               June 30, 2013.
    DWHP Proficiencies         All WH primary care providers designated as DWHPs as of
                               October 1, 2012, and who remained as DWHPs until
                               September 30, 2013.

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

The review was done in accordance with OIG standard operating procedures for CBOC
and PCC reviews.




2
 The AUDIT-C is a brief alcohol screen that reliably identifies patients who are hazardous drinkers or have active
alcohol use disorders. Scores range from 0–12.


VA OIG Office of Healthcare Inspections                                                                              2
                           CBOC and PCC Reviews at VA Long Beach Healthcare System, Long Beach, CA



                        Results and Recommendations 

EOC
The purpose of this review was to evaluate whether CBOC managers have established and
maintained a safe and clean EOC as required.a

We reviewed relevant documents and conducted a physical inspection of the Santa Ana
CBOC. The table below shows the areas reviewed for this topic. The areas marked as NM
did not meet applicable requirements and needed improvement.

Table 2. EOC

NM                     Areas Reviewed                                    Findings
       The CBOC’s location is clearly identifiable
       from the street as a VA CBOC.
       The CBOC has interior signage available
       that clearly identifies the route to and
       location of the clinic entrance.
       The CBOC is Americans with Disabilities Act
       accessible.
       The furnishings are clean and in good repair.
       The CBOC is clean.
       The CBOC maintains a written, current
       inventory of hazardous materials and waste
       that it uses, stores, or generates.
 X     An alarm system and/or panic buttons are         The testing of the panic alarm system was not
       installed and tested in high-risk areas (e.g.,   performed and documented at the Santa Ana
       MH clinic).                                      CBOC.
       Alcohol hand wash or soap dispenser and
       sink are available in the examination rooms.
       Sharps containers are secured.
       Safety needle devices are available.
       The CBOC has a separate storage room for
       storing medical (infectious) waste.
       The CBOC conducts fire drills at least every
       12 months.
       Means of egress from the building are
       unobstructed.
       Access to fire alarm pull stations is
       unobstructed.
       Access to fire extinguishers is unobstructed.
       The CBOC has signs identifying the
       locations of fire extinguishers.
       Exit signs are visible from any direction.
       No expired medications were noted during
       the onsite visit.
       All medications are secured from
       unauthorized access.


VA OIG Office of Healthcare Inspections                                                             3
                           CBOC and PCC Reviews at VA Long Beach Healthcare System, Long Beach, CA


NM                Areas Reviewed (con’t)                                 Findings
       Personally identifiable information is
       protected on laboratory specimens during
       transport so that patient privacy is
       maintained.
       Adequate privacy is provided to patients in
       examination rooms.
       Documents containing patient-identifiable
       information are not laying around, visible, or
       unsecured.
       Window coverings provide privacy.
       The CBOC has a designated examination
       room for women veterans.
       Adequate privacy is provided to women
       veterans in the examination room.
       The information technology network
       room/server closet is locked.
       All computer screens are locked when not in
       use.
       Staff use privacy screens on monitors to
       prevent unauthorized viewing in high-traffic
       areas.
 X     EOC rounds are conducted semi-annually           EOC deficiencies at the Santa Ana CBOC
       (at least twice in a 12-month period) and        were not reported to and tracked by the
       deficiencies are reported to and tracked by      parent facility EOC Committee until
       the EOC Committee until resolution.              resolution. This will be noted in the
                                                        Combined Assessment Program Report.
       The CBOC has an automated external
       defibrillator.
       Safety inspections are performed on the
       CBOC medical equipment in accordance
       with Joint Commission standards.
       The parent facility includes the CBOC in
       required education, training, planning, and
       participation leading up to the annual
       disaster exercise.
 X     The parent facility’s Emergency                  The parent facility’s Emergency Management
       Management Committee evaluates CBOC              Committee did not evaluate the emergency
       emergency preparedness activities,               preparedness activities, participation in
       participation in annual disaster exercise, and   annual disaster exercise, and staff
       staff training/education relating to             training/education related to emergency
       emergency preparedness requirements.             preparedness requirements at the Santa Ana
                                                        CBOC.

Recommendations

1. We recommended that panic alarms are tested, and testing is documented at the Santa
Ana CBOC.




VA OIG Office of Healthcare Inspections                                                           4
                           CBOC and PCC Reviews at VA Long Beach Healthcare System, Long Beach, CA


2. We recommended that the parent facility’s Emergency Management Committee
evaluate emergency preparedness activities, participation in annual disaster exercise, and
staff training/education related to emergency preparedness requirements at the Santa Ana
CBOC.




VA OIG Office of Healthcare Inspections                                                        5
                           CBOC and PCC Reviews at VA Long Beach Healthcare System, Long Beach, CA


AUD
The purpose of this review was to determine whether the facility’s CBOCs and PCCs
complied with selected alcohol use screening and treatment requirements.b

We reviewed relevant documents. We also reviewed 39 EHRs and validated findings with
key managers and staff. The table below shows the areas reviewed for this topic. The
areas marked as NM did not meet applicable requirements and needed improvement.

Table 3. AUD

NM                    Areas Reviewed                                        Findings
       Alcohol use screenings are completed during
       new patient encounters, and at least
       annually.
       Diagnostic assessments are completed for
       patients with a positive alcohol screen.
       Education and counseling about drinking
       levels and adverse consequences of heavy
       drinking are provided for patients with positive
       alcohol screens and drinking levels above
       National Institute on Alcohol Abuse and
       Alcoholism guidelines.
 X     Documentation reflects the offer of further        We did not find documentation of the offer of
       treatment for patients diagnosed with alcohol      further treatment for 2 of 6 patients
       dependence.                                        diagnosed with alcohol dependence.
       For patients with AUD who decline referral to
       specialty care, CBOC/PCC staff monitored
       them and their alcohol use.
       Counseling, education, and brief treatments
       for AUD are provided within 2 weeks of
       positive screening.
 X     CBOC/PCC RN Care Managers have                     We found that 17 (52 percent) of 33 RN Care
       received MI training within 12 months of           Managers did not receive MI training within
       appointment to PACT.                               12 months of appointment to PACT.
 X     CBOC/PCC RN Care Managers have                     We found that 14 (42 percent) of 33 RN Care
       received VHA National Center for Health            Managers did not receive health coaching
       Promotion and Disease Prevention-approved          training within 12 months of appointment to
       health coaching training (most likely TEACH        PACT.
       for Success) within 12 months of appointment
       to PACT.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

3. We recommended that CBOC/Primary Care Clinic staff consistently document the offer
of further treatment to patients diagnosed with alcohol dependence.




VA OIG Office of Healthcare Inspections                                                               6
                           CBOC and PCC Reviews at VA Long Beach Healthcare System, Long Beach, CA


4. We recommended that CBOC/Primary Care Clinic Registered Nurse Care Managers
receive motivational interviewing and health coaching training within 12 months of
appointment to Patient Aligned Care Teams.




VA OIG Office of Healthcare Inspections                                                        7
                            CBOC and PCC Reviews at VA Long Beach Healthcare System, Long Beach, CA


MM
The purpose of this review was to determine whether appropriate clinical oversight and
education were provided to outpatients prescribed oral fluoroquinolone antibiotics.c

We reviewed relevant documents. We also reviewed 38 EHRs and validated findings with
key managers and staff. The table below shows the areas reviewed for this topic. The
areas marked as NM did not meet applicable requirements and needed improvement.

Table 4. Fluoroquinolones

 NM                   Areas Reviewed                                     Findings
  X    Clinicians documented the medication            We did not find documentation that
       reconciliation process that included the        medication reconciliation included the newly
       fluoroquinolone.                                prescribed fluoroquinolone in 24 (63 percent)
                                                       of 38 patient EHRs.
       Written information on the patient’s
       prescribed medications was provided at the
       end of the outpatient encounter.
  X    Medication counseling/education for the         We did not find documentation of medication
       fluoroquinolone was documented in the           counseling that included the fluoroquinolone
       patients’ EHRs.                                 in 29 (76 percent) of 38 patient EHRs.
       Clinicians documented the evaluation of
       each patient’s level of understanding for the
       education provided.
       The facility complied with local policy.

Recommendations

5. We recommended that staff document that medication reconciliation is completed at
each episode of care where the newly prescribed fluoroquinolone was administered,
prescribed, or modified.

6. We recommended that staff provide medication counseling/education as required.




VA OIG Office of Healthcare Inspections                                                               8
                           CBOC and PCC Reviews at VA Long Beach Healthcare System, Long Beach, CA


DWHP Proficiency
The purpose of this review was to determine whether the facility’s CBOCs and PCCs
complied with selected DWHP proficiency requirements.d

We reviewed the facility self-assessment, VHA and local policies, Primary Care
Management Module data, and supporting documentation for DWHPs’ proficiencies. The
table below shows the areas reviewed for this topic.     The facility generally met
requirements. We made no recommendations.

Table 5. DWHP Proficiency

NM                   Areas Reviewed                                    Findings
       CBOC and PCC DWHPs maintained
       proficiency requirements.
       CBOC and PCC DWHPs were designated
       with the WH indicator in the Primary Care
       Management Module.




VA OIG Office of Healthcare Inspections                                                         9
                                                                       CBOC and PCC Reviews at VA Long Beach Healthcare System, Long Beach, CA
                                                                                                                                    Appendix A

                                                                     CBOC Profiles 

This review evaluates the quality of care provided to veterans at all of the CBOCs under the parent facility’s oversight.3
The table below provides information relative to each of the CBOCs.

                                                                                        Uniques4                                    Encounters4

                                 Station                    CBOC
        Location        State                Locality5                    MH7        PC8       Other9        All       MH7         PC8       Other9       All
                                    #                        Size6
    Laguna Hills       CA       600GE        Urban       Mid-Size        1,252       4,307        523       4,517      3,195      8,065         579    11,839
    Santa Ana          CA       600GB        Urban       Mid-Size        1,064       3,491      2,332       4,410      5,791     10,653       5,558    22,002
    Anaheim            CA       600GA        Urban       Mid-Size          888       3,178      1,997       3,618      2,557     13,068       4,538    20,163
    Santa Fe
    Springs/Whittier   CA       600GD        Urban       Mid-Size           712      2,555         622      2,706      1,781      6,238         659      8,678
    Cabrillo (Long
    Beach)             CA       600GC        Urban       Small              190        743         291        847      2,574      2,996         570      6,140




3
  Includes all CBOCs in operation before March 31, 2013. 

4
  Unique patients and Total Encounters – Source: MedSAS outpatient files; completed outpatient appointments indicated by a valid stop code during the 

October 1, 2012, through September 30, 2013, timeframe at the specified CBOC.

5
  http://vaww.pssg.med.va.gov/PSSG/DVDC/FY2013_Q1_VAST.xlsx

6
  Based on the number of unique patients seen as defined by VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics, 

September 11, 2008, the size of the CBOC facility is categorized as very large (> 10,000), large (5,000-10,000), mid-size (1,500-5,000), or small (< 1,500).

7
  Mental Health includes stop codes in the 500 series, excluding 531 and 563, in the primary position. 

8
  Primary Care includes the stop code list in the primary position: 323 – Primary Care; 322 – Women’s Clinic; 348 – Primary Care Group; 350 – Geriatric 

Primary Care; 531 – MH Primary Care Team-Individual; 563 – MH Primary Care Team-Group; 170 – Home Based Primary Care (HBPC) Physician. 

9
  All other non-Primary Care and non-MH stop codes in the primary position.




VA OIG Office of Healthcare Inspections                                                                                                                         10
                             CBOC and PCC Reviews VA Long Beach Healthcare System, Long Beach, CA


                                   CBOC Services Provided 

In addition to primary care integrated with WH and mental health care, the CBOCs
provide various specialty care, ancillary, and tele-health services. The following table
lists the services provided at each CBOC.10

                                   Specialty Care                                              Tele-Health
           CBOC                                               Ancillary Services12
                                     Services11                                                Services13
    Laguna Hills                         ---                   Diabetic Retinal            Tele Primary Care
                                                                  Screening
    Santa Ana                        Neurology                    Audiology                Tele Primary Care
                                                               Diabetes Care
                                                               Diabetic Retinal
                                                                  Screening
    Anaheim                          Neurology                 Diabetic Retinal            Tele Primary Care
                                                                  Screening
    Santa Fe                              ---                  Diabetic Retinal                     ---
    Springs/Whittier                                              Screening
    Cabrillo (Long                        ---                    Laboratory                Tele Primary Care
    Beach)
 




10
   Source: MedSAS outpatient files; the denoted Specialty Care and Ancillary Services are limited to Primary Clinic 

Stops with a count ≥ 100 encounters during the October 1, 2012, through September 30, 2013, timeframe at the 

specified CBOC

11
   Specialty Care Services refer to non-Primary Care and non-MH services provided by a physician.

12
   Ancillary Services refer to non-Primary Care and non-MH services that are not provided by a physician. 

13
   Tele-Health Services refer to services provided under the VA Telehealth program (http://www.telehealth.va.gov/) 


VA OIG Office of Healthcare Inspections                                                                          11
                                                                     CBOC and PCC Reviews at VA Long Beach Healthcare System, Long Beach, CA
                                                                                                                                 Appendix B


                                                          PACT Compass Metrics




                                                                                                                                                                
Data Definition.e The average waiting time in days until the next third open appointment slot for completed primary care appointments in stop code 350.
Completed appointments in stop code 350 for this metric include completed appointments where a 350 stop code is in the primary position on the appointment
or one of the telephone stop codes is in the primary position, and 350 stop code is in the secondary position. The data is averaged from the national to the
division level.
VA OIG Office of Healthcare Inspections                                                                                                                  12
                                                                     CBOC and PCC Reviews at VA Long Beach Healthcare System, Long Beach, CA




Data Definition.e The percent of patients scheduled within 7 days of the desired date. Data source is the Wait Times Prospective Wait Times measures. The
total number of scheduled appointments for primary care-assigned patients in primary care clinics 322, 323 and 350. Data is collected twice a month on the 1st
and the 15th. Data reported is for the data pulled on the 15th of the month. There is no FY to date score for this measure.


VA OIG Office of Healthcare Inspections                                                                                                                  13
                                                                     CBOC and PCC Reviews at VA Long Beach Healthcare System, Long Beach, CA




Data Definition.e This is a measure of where the patient receives his or her primary care and by whom. A low percentage is better. The formula is the total
VHA ER/Urgent Care/FEE ER Encounters WOP (including FEE ER visits) divided by the number of primary care encounters WOP with the patient’s
assigned primary care (or associate) provider plus the total VHA ER/Urgent Care/FEE ER Encounters (including FEE ER visits) WOP plus the number of
primary care encounters WOP with a provider other than the patient’s PCP/AP. Blank cells indicate the absence of reported data.

VA OIG Office of Healthcare Inspections                                                                                                                  14
                                                                     CBOC and PCC Reviews at VA Long Beach Healthcare System, Long Beach, CA




Data Definition.e Total Discharges Included in 2-day Contact Post Discharge Ratio: The total VHA and FEE Inpatient Discharges for assigned primary care
patients for the reporting timeframe. Discharges resulting in death and discharges where a patient is readmitted within 2 days of discharge are excluded from
this metric. Blank cells indicate the absence of reported data.



VA OIG Office of Healthcare Inspections                                                                                                                  15
                       CBOC and PCC Reviews at VA Long Beach Healthcare System, Long Beach, CA
                                                                                   Appendix C
                              VISN Director Comments


               Department of
               Veterans Affairs                                Memorandum


           Date:       September 9, 2014

          From: 	      Director, VA Desert Pacific Healthcare Network (10N22)

       Subject: 	 CBOC and PCC Reviews of the VA Long Beach
                  Healthcare System, Long Beach, CA

          To: 	        Director, Los Angeles Office of Healthcare Inspections 

                       (54LA) 


                       Director, Management Review Service (VHA 10AR MRS
                       OIG CAP CBOC)



           1. 	 I concur with the findings and recommendations in the CBOC and
               PCC Reviews of the VA Long Beach Healthcare System.

           2. If you have any questions regarding our responses to the
              recommendations, please contact Jimmie Bates, QMO at 562-826-
              5963.




VA OIG Office of Healthcare Inspections                                                    16
                       CBOC and PCC Reviews at VA Long Beach Healthcare System, Long Beach, CA
                                                                                   Appendix D
                            Facility Director Comments



               Department of
               Veterans Affairs                                Memorandum


           Date:       September 9, 2014

          From:        Director, VA Long Beach Healthcare System (600/00)

       Subject:        CBOC and PCC Reviews of the VA Long Beach
                       Healthcare System, Long Beach, CA

             To:       Director, Desert Pacific Health Care Network (10N22)



             1. Please find attached response to the VA Office of Inspector
                General’s (OIG) CBOC and PCC Reviews of the VA Long Beach
                Healthcare System conducted the week of July 21, 2014.

             2. We concur with all recommendations.




VA OIG Office of Healthcare Inspections                                                    17
                       CBOC and PCC Reviews at VA Long Beach Healthcare System, Long Beach, CA


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

Recommendation 1. We recommended that panic alarms are tested, and testing is
documented at the Santa Ana CBOC.

Concur

Target date of completion: September 2014, Ongoing.

Facility response: The panic alarms in the Santa Ana CBOC are tested monthly by the
VA Police and documented in a log book at the Santa Ana CBOC. The panic alarm
results will be reported to Emergency Safety Leadership Health Care Council quarterly
starting September 2014.

Recommendation 2.       We recommended that the parent facility’s Emergency
Management Committee evaluate emergency preparedness activities, participation in
annual disaster exercise, and staff training/education related to emergency
preparedness requirements at the Santa Ana CBOC.

Concur

Target date for completion: October 2014, Ongoing.

Facility response: The VA Long Beach Emergency Management Committee (EMC)
evaluates emergency preparedness activities at the Santa Ana CBOC as a monthly
standing agenda item. The EMC evaluates disaster drills, training and exercises
conducted at the CBOC for compliance and effectiveness, and ensures activities and
outcomes are recorded in the minutes.

Recommendation 3.        We recommended that CBOC/Primary Care Clinic staff
consistently document the offer of further treatment to patients diagnosed with alcohol
dependence.

Concur

Target date for completion: September 2014, Ongoing.

Facility response: The positive Audit – C reminder dialog for counseling outpatients will
be updated to assist with documenting referrals to Substance Abuse Treatment Center
(or refusal) for all patients Audit – C score of 8 or greater.




VA OIG Office of Healthcare Inspections                                                    18
                       CBOC and PCC Reviews at VA Long Beach Healthcare System, Long Beach, CA


Recommendation 4. We recommended that CBOC/Primary Care Clinic Registered
Nurse Care Managers receive motivational interviewing and health coaching training
within 12 months of appointment to Patient Aligned Care Teams.

Concur

Target date for completion: September 2014, Ongoing.

Facility response: Incorrect entry on duty (EOD) dates upon hire to PACT is the reason
that our records did not reflect that all PACT RN Care Managers had received
Motivational Interviewing and TEACH for Success training, which includes the following:
Tune in to the Patient, Explore the Patient’s Concerns, Preferences and Needs, Assist
the Patient with Behavior Changes, Communicate effectively and Honor the Patient as a
Partner within 12 months of appointment to PACT. To ensure accuracy of our records,
the supervisors will validate and document that our records reflect the correct EOD date
of every newly appointed PACT RN Care Manager. To further enhance our processes
and ensure training compliance within 12 months, all new PACT RN Care Managers will
be enrolled in both courses during orientation. Completion of both courses is required
before the employee is released from orientation. To ensure that no new Pact RN Care
Manager exceeds the 12 month timeframe, a spreadsheet is being developed with
formulas to reflect the number of days lapsed from appointment to completion of these
courses. The Health Behavior Coordinator will review and monitor the spreadsheet and
report training compliance to the PACT Board monthly for additional oversight.

Recommendation 5.         We recommended that staff document that medication
reconciliation is completed at each episode of care where the newly prescribed
fluoroquinolone was administered, prescribed, or modified.

Concur

Target date for completion: August 2014, Ongoing.

Facility response: Medication Reconciliation policy HSP 03-10 has been approved by
Medical Executive Committee (MEC). Completed August 2014.

Ongoing monthly chart audits to be conducted until 3 consecutive months with a
90% compliance rate achieved.

Recommendation 6.           We recommended               that   staff   provide   medication
counseling/education as required.

Concur

Target date for completion: August 2014, Ongoing.

Facility response: Short term, a Prior Authorization Consult template and medication
order set, has been developed and implemented which guides the ordering of



VA OIG Office of Healthcare Inspections                                                    19
                       CBOC and PCC Reviews at VA Long Beach Healthcare System, Long Beach, CA


fluoroquinolones and facilitates patient education and counseling. Completed August
2014.

The long term plan is to develop and institute a Reminder Dialog in CPRS to replace the
Prior Authorization Consult in order to make the process more efficient. Complete
November 2014.

Develop, install and use medication counseling template to document pharmacist
counseling at the pharmacy window. Activate tracking software to identify and record
patients who decline counseling. Completed August 2014.

Ongoing monthly chart audits to be conducted until 3 consecutive months with a 90%
compliance rate achieved.




VA OIG Office of Healthcare Inspections                                                    20
                       CBOC and PCC Reviews at VA Long Beach Healthcare System, Long Beach, CA
                                                                                   Appendix E


                 OIG Contact and Staff Acknowledgments
Contact                 For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite                  Yoonhee Kim, PharmD, Team Leader
Contributors            Kathleen Shimoda, RN
Other                   Lin Clegg, PhD
Contributors            Matt Frazier, MPH
                        Jeff Joppie, BS
                        Jackelinne Melendez, MPA
                        Jennifer Reed, RN, MSHI
                        Victor Rhee, MHS
                        Patrick Smith, M. Stat
                        Marilyn Stones, BS
                        Mary Toy, RN, MSN
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                    21
                       CBOC and PCC Reviews at VA Long Beach Healthcare System, Long Beach, CA
                                                                                   Appendix F

                                   Report Distribution
VA Distribution

Office of the Secretary
Veterans Health Administration
Assistant Secretaries
General Counsel
Director, Desert Pacific Healthcare Network (10N22)
Director, VA Long Beach Healthcare System (600/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
Senate: Barbara Boxer, Dianne Feinstein
House of Representatives: Karen Bass, John Campbell, Janice Hahn, Alan Lowenthal,
Dana Rohrabacher, Lucille Roybal-Allard, Ed Royce, Linda Sanchez, Loretta Sanchez,
Maxine Waters


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                                    22
                           CBOC and PCC Reviews at VA Long Beach Healthcare System, Long Beach, CA
                                                                                       Appendix G

                                                   Endnotes 


a
    References used for the EOC review included:
	 US Access Board, Americans with Disabilities Act Accessibility Guidelines (ADAAG), September 2, 2002.
	 US Department of Health and Human Services, Health Insurance Portability and Accountability Act, The
     Privacy Rule, August 14, 2002.
	 US Department of Labor, Occupational Safety and Health Administration, Laws and Regulations.
	 US Department of Labor, Occupational Safety and Health Administration, Guidelines for Preventing Workplace
   Violence, 2004.
	 Joint Commission, Joint Commission Comprehensive Accreditation and Certification Manual, July 1, 2013.
	 VA Directive 0324, Test, Training, Exercise, and Evaluation Program, April 5, 2012.
	 VA Directive 0059, VA Chemicals Management and Pollution Prevention, May 25, 2012.
	 VA Handbook 6500, Risk Management Framework for VA Information System, September 20, 2012.
	 VHA Center for Engineering, Occupational Safety, and Health, Emergency Management Program Guidebook,
   March 2011.
	 VHA Center for Engineering, Occupational Safety, and Health, Online National Fire Protection Association
   Codes, Standards, Handbooks, and Annotated Editions of Select Codes and Standards, July 9, 2013.
	 VHA Deputy Under Secretary for Health for Operations and Management, Memorandum: Environmental
   Rounds, March 5, 2007.
	 VHA Directive 2011-007, Required Hand Hygiene Practices, February 16, 2011.
	 VHA Directive 2012-026, Sexual Assaults & Other Defined Public Safety Incidents in VHA Facilities,
   September 27, 2012.
	 VHA Handbook 1006.1, Planning and Activating Community-Based Outpatient Clinics, May 19, 2004.
	 VHA Handbook 1330.01, Health Care Services for Women Veterans, May 21, 2010.
	 VHA Handbook 1850.05, Interior Design Operations and Signage, July 1, 2011.
b
  References used for the AUD review included:
	 National Center for Health Promotion and Disease Prevention (NCP), Veteran Health Education and Information
   (NVEI) Program, Patient Education: TEACH for Success. Retrieved from
   http://www.prevention.va.gov/Publications/Newsletters/2013/HealthPOWER_Prevention_News_Winter_2012_2
   013_FY12_TEACH_MI_Facilitator_Training.asp on January 17, 2014.
	 VHA Handbook 1120.02, Health Promotion Disease Prevention (HPDP) Program, July 5, 2012.
	 VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics,
   September 11, 2008.
c
  References used for the Medication Management review included:
	 VHA Directive 2011-012, Medication Reconciliation, March 9, 2011.
	 VHA Directive 2012-011, Primary Care Standards, April 11, 2012.
	 VHA Handbook 1108.05, Outpatient Pharmacy Services, May 30, 2006.
	 VHA Handbook 1108.07, Pharmacy General Requirements, April 17, 2008.
	 Joint Commission, Joint Commission Comprehensive Accreditation and Certification Manual, July 1, 2013.
d
  References used for the DWHP review included:
	 VHA Deputy Under Secretary for Health for Operations and Management, Memorandum: Health Care Services
   for Women Veterans, Veterans Health Administration (VHA) Handbook 1330.01; Women’s Health (WH)
   Primary Care Provider (PCP) Proficiency, July 8, 2013.
	 VHA Handbook 1330.01 Health Care Services for Women Veterans, May 21, 2010.
	 VHA Handbook 1100.19, Credentialing and Privileging, November 14, 2008.
e
  Reference used for PACT Compass data graphs:
	 Department of Veterans’ Affairs, Patient Aligned Care Teams Compass Data Definitions, August 29, 2013.




VA OIG Office of Healthcare Inspections                                                                    23
